IN THE
SUPREME COURT OF THE UNITED STATES
Wael Lasheen

PETITIONER (Your Name)
VS.

Jill Lasheen

RESPONDENT(S)

PROOF OF SERVICE
Wael Lasheen
, do swear or declare that on this
I,
date__ .02/08/2021.
as required by Supreme Court I have served the enclosed PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
Attorney for Respondent
BARBARA K. ROMAN (0014607)
Meyers, Roman, Friedberg & Lewis
28601 Chagrin Boulevard, Suite 600
Cleveland, Ohio 44122
Tel: (216) 831-0042
Fax: (216) 831-0542
Email: broman@meyersroman.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on^WucxrqS
2021

(Signature)

JXXjjUsb
I.

S

Mary A. Sweress
I Notary Public, State of Ohio
r&fei MV Commission Expires
October 3,2021

